*

n

%

V' <U' 'U! c3;

Ji F

No.
SuP'^maCournjs
filed

OCT 3 s 2020
L_OfFjCEOFTHECLERK

IN THE
SUPREME COURT OF THE UNITED STATES

EMILIO URENA-VILLA
(Your Name)

— PETITIONER

vs.
UNITED STATES OF A MET? TO A — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Emilio Urena-Villa
(Your Name)

_______ Register #85410-408
(Address?7910 N- 45th Avenue

Phoenix. Arizona 85086-7055
(City, State, Zip Code)
(623) 465-9757
(Phone Number)

A [;

QUESTION(S) PRESENTED
1.

WHETHER APPOINTED COUNSEL WAS INEFFECTIVE, FOR FAILURE TO
FILE VIABLE MOTION TO SUPPRESS PURSUANT TO FOURTH AMENDMENT
CLAIM UNDER: KIMMELMAN v. MORRISON, 477 U.S. 365 (1986) AND
STRICKLAND v. WASHINGTON, 466 U.S. 668 (1984^RESPECTIVELY?

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

'J

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

-y

TABLE OF AUTHORITIES CITED
CASES

STATUTES AND RULES

OTHER

PAGE NUMBER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[X| For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix ma"
the petition and is
[X] reported at No. 19-10276 (9th Cir. JUL 16 202Qj • 0r,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix "B"
the petition and is
[X| reported at 4 :17-cr-01860-CKJ-BGM-l (D. C.Tuc . Az-W
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix-------- to the petition and is
[ ] reported at
~‘,or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

_ court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

to

JURISDICTION

[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
July 16. 2020
was
[X] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ___________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date) in
Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
UNITED STATES CONSTITUTIONAL PROVISIONS:
AMENDMENTS TO THE CONSTITUTION
OF THE UNITED STATES
Amendment IV.
The right of the people to be secure in their persons, houses,
papers, and effects, against unreasonable searches and seizures,
shall not be violated, and no Warrants shall issue, but upon proable cause, supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons or things
to be seized.
Amendment VI.
In all criminal prosecutions', the accused shall enjoy the right
to a speedy public trial, by an impartial jury of the State and
district wherein the crime shall have been committed; which dis­
trict shall have been previously ascertained by law, and to be
informed of the nature and cause of the accusation; to be con­
fronted with the witnesses against him; to have Compulsory pro­
cess for obtaining witnesses in his favor, and to have the as­
sistance of counsel for his defence.
Jurisdiction is invoked under 28 U.S.C. § 1254.(1).

3

STATEMENT OF THE CASE
Emilio Urena-Villa was charged with several offenses related
to a subsequent superseding Indictment for the purchase of nine
weapons and-or ammunition counts; Mr. Urena-Villa however, plead
to count-1 of the superseding indictment charging him as a prohibit­
ed possessor of ammunition, in violation of 18 U.S.C. § 922(g) and
18 U.S.C. § 924(a)(2); see Plea Agreement.^
Mr. Urena-Villa received the high end of a stipulated and agreed
upon sentencing range of 21-months to 46-months pursuant to Fed. R.
Crim. P. 11(c)(1)(C), followed by a maximum term of 3-yeara super­
vised release; see ER/Sentencing Hearing 25-35.
After sentencing the Petitioner's appointed trial counsel fil­
ed a timely notice of appeal on August 14, 2019, raising two issues
after what counsel stated: "After a conscientious search of the re­
cord, appellant's counsel can find no meritorious issues for appeal
and

believes the appeal is wholly frivolous; pursuant to Anders v.

California, 386 U.S. 738 (1967)." see ER/AOB 1-30 .
Thereafter J ‘ on February 11, 2020, the Ninth Circuit ORDER that
Appellant may file a pro se supplemental opening brief

"raising in

his own words, any issues in this case." see ER/1 of 2.
On March 27, 2020, Urena-Villa filed his Pro Se Supplemental
Opening Brief, raising three issues, with his principal argument
being that "but for counsel's unprofessional errors, the proceeding
would have been different." see ER/1-15.
1 ER refers to the Excerpts of Record Urena-Villa filed in the
Ninth Circuit in case number 19-10276. AOB refers to Urena-Vi11a's
pro se supplemental opening brief in that case, which has a more de­
tailed summary of the background of this case.
4

Issue[s] two and three

in essence go toward Urea-Villa's

ineffective assistance of counsel regarding law enforcement officers
lack of probable cause to arrest and charge the defendant and a meritourious fourth amendment claim, where counsel's failure to file a
motion to suppress unlawfully obtain evidence, which shows prejudice,
see ER/1-15.
The Ninth Circuit overlooked facts, within Urea-Villa's plea
agreement where issues reserved included "ineffective assistance of
counsel and Granted the government's motion to dismiss the appeal,"
and declined to address on direct appeal pro se claim of ineffect­
ive assistance of counsel, see ER/1 of 2.

5

REASONS FOR GRANTING THE PETITION
I.

Whether Appointed Counsel was ineffective for failure
To File An Viable Motion to Suppress Evidence Protected
Under The Fourth Amendment
Which Protects People From
Unreasonable Searches of Their Persons, Houses, Papers,
And Effects?
In order to show ineffective assistance of counsel, a

defendant must establish that (1) counsel's performance was so
deficient that "counsel was not functioning as . the counsel' guar­
anteed the defendant by the Sixth Amendment;" and (2) counsel's
"deficient performance prejudiced the defence" in that counsel's
errors "deprived the defendant of a fair trial, a trial whose
result is reliable." Strickland v. Washington, 466 U.S. 668,
687, 80 L. Ed. 2d 674, 104 S. Ct. 2052 (1983).
Under the first prong of Strickland, "the performance in­
quiry must be whether counsel's assistance was reasonable con­
sidering all the circumstances.'.' Id., at 688.
Here, in district court as well as the court of appeals
counsel's assistance was unreasonable based on the following:
1. Before, during plea negotation's and on direct appeal;
counsel failed to review the evidence in order to make any well
informed decisions as to file motion regarding the arrest and
search of an american citizen.
2. Counsel failed to recognize that Law Enforcement Offic­
ers had any probable cause to arrest and charge the defendant ac­
cording to to event[s] leading up to the arrest and whether the
historical facts, viewed from the standpoint of an objectively
reasonable police officer, amounted to probable cause. And,
3..Moreover, where, as here, the defendant's ineffectiveassistance claim is based on counsel's failure to file any motion
to suppress, in order to show or prove prejudice, the petitioner

6

must prove that the "Fourth Amendment claim is meritorious" and
"that there is a reasonable probability that the verdict would
have been different absent the excludable evidence." Kimmelman
v. Morrison, 477 U.S. 365, 375, 106 S. Ct. 2574, 91 L. Ed. 2d
305 (1986).
From "a big picture prespective," the issue[s] presented:
Urena-Villa's ineffective-assistance claim is based on counsel's
failure[s] to file motions to suppress, and motion to dismiss all
counts of the indictment, because law enforcement officials lack
probable cause to arrest the Petitioner in the first place.
There is a reasonable probability that the verdict would
have been different absent the excludable evidence in this case.
See Kimmelman v. Morrison, 477 U.S. 365 (1986); see also Moore v.
Czerniak

534 F.3d 1128 (9th Cir. 2005).

The Petitioner further contends, that counsel's failure[s]
caused certain evidence to come into play during plea negotations
which further violated his due process rights, when counsel did
file an incomplete motion ... only filing to suppress the gun store
security camera footage related to the prior purchases by him, yet,
failed to motion for full blown suppression hearing to raise the
petitioner's rights regarding his privacy rights as to law enforce­
ment's lack of probable cause to even have arrested the petitioner,
to examine the events leading up to the arrest, and to then decide
"whether these historical facts, viewed from the standpoint of an
objectively reasonable police officer amount[ed] to probable cause."
See Maryland v. Pringle, 540 U.S. 366 (2003).

7

t

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Emilio Urena-Villa, In pro se
Register #85410-408
Date: October 14, 2020.

